@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 19-287

JORGE L. MEDINA,
Petitioner,
Vv.
WILLIAM P. BARR,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
FIREARMS POLICY COALITION, FIREARMS POLICY FOUNDATION, CALIFORNIA GUN
RIGHTS FOUNDATION, AND CITIZENS COMMITTEE FOR THE RIGHT TO KEEP AND
BEAR ARMS IN SUPPORT OF PETITIONER in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook

12 point for the text and 10 point for the footnotes, and this brief contains 5983 words, excluding

the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 1st day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . Y
State of Nebraska . LS Qudraw-
My Commission Expires Nov 24, 2020 ¢

 

 

Notary Public

38705
